Inspection Report No. OIG-INS-05-00-02: Update of Results Act Implementation
Inspection Report No. OIG-INS-05-00-02 Update of Results Act Implementation
Inspector General Memorandum
Quantifiable Measures
Supporting Documentation
Time Calculations
Excluded Cases
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
March 16, 2000
To: Harding Darden, Chief, Budget Branch
From: Jane E. Altenhofen, Inspector
General
Subject: Inspection Report No.
OIG-INS-05-00-02: Update of Results Act Implementation
We initiated this inspection in November
1999 to evaluate the adequacy of the National Labor Relations Board
(NLRB or Agency) plans and preparations for measuring performance in
accordance with the Government Performance and Results Act of 1993
(Results Act). We specifically reviewed the Agency's ability to
accurately report on the performance measures and the achievement of its
goals to date.
We found that some goals were not
defined or expressed as tangible, measurable objectives. Support was
missing or not readily available for some performance measures. A
revised performance plan for Fiscal Year (FY) 1999 was not prepared in a
timely or clear manner. The results in the draft performance reports did
not include specific data on some measures or comments necessary for
readers to understand the data, most significantly, that substantial
periods of time or cases were excluded from the results.
A draft inspection report was
distributed on January 24, 2000 to all Agency officials participating in
the development of the strategic plan, annual performance plans, or the
performance report for discussion at an Agency strategic planning
seminar. A revised draft was distributed on February 4, 2000, for review
and comment.
Scope
We interviewed staff in the Budget
Branch, Office of Administration, who coordinate preparation of
strategic planning documents. We also interviewed Agency officials
identified as being responsible for reporting on a performance measure.
We obtained reports prepared by the Information Technology Branch (ITB)
and examined documents maintained by offices relevant to the performance
measures.
We reviewed the Results Act, and related
correspondence from the Office of Management and Budget (OMB). Criteria
from OMB Circular No. A-11, Part 2, Preparation and Submission of
Strategic Plans, Annual Performance Plans, and Annual Program
Performance Reports is shaded in the body of this report. We used a
guide issued by the General Accounting Office (GAO) entitled An
Evaluator's Guide to Assessing Agency Annual Performance Plans
(GAO/GGD-10.1.20, dated April 1998), and reviewed various other GAO
reports on the Results Act.
Background
The Results Act required all government
agencies to develop and submit a strategic plan to Congress by September
30, 1997, for the six-year period ending September 30, 2002. No later
than March 31, 2000, for FY 1999 (October 1, 1998 - September 30, 1999)
and annually thereafter, agencies must prepare and submit a report on
program performance for the previous FY.
The Agency prepared a Strategic Plan for
FYs 1997 - 2002, an Annual Performance Plan for FY 1999 (FY 1999 Plan),
and an Annual Performance Plan for FY 2000 (FY 2000 Plan). These
documents were completed at the same time as the Agency's budget
submission, in approximately March of 1997, 1998, and 1999 respectively.
The Strategic Plan had eight sections: the mission statement; statutory
structure; environment; input from stakeholders; four goals; objectives,
strategies and performance measures for each goal; external factors; and
program evaluation. The annual performance plans addressed the statutory
structure; and objectives, strategies and performance measures for each
goal.
Beginning in November 1999, the Budget
Branch began to circulate drafts of the FY 1999 Performance Report for
review and comment. The Performance Report was based on revised
performance measures for FY 1999 set forth in the FY 2000 Plan. We used
the draft performance report dated January 10, 2000, which identified 48
performance measures as the basis for comments in this report. Using the
Strategic Plan and annual plans, we restated the performance measures in
a consistent manner, as shown in the attachments to this report, to use
in our evaluation. The performance measures, which were numbered
chronologically by goal, are identified in parentheses when discussed as
a specific finding or example (i.e. 1-2 is goal one, the second
performance measure).
220.9 Performance Measure. An annual performance plan must include
performance goals that shall be defined either in an objective and
quantifiable manner, or as sufficiently precise descriptive statements
that allow an accurate, independent determination to be made of actual
performance. Performance goals usually have a numerical target level or
other measurable value.
We found that most of the 48 performance
measures for FY 1999 met the OMB definition. About a third of the
performance measures (16 - see Attachment 1) were not tangible,
measurable objectives expressed as a quantitative standard, value, or
rate. In goals 1 and 2, six performance measures were either ongoing
responsibilities (i.e. evaluate work quality) or one-time projects (i.e.
revise a manual). None of the ten measures in goal 3 were precise
descriptive statements sufficient to allow measurement.
Goal 3 pertained to the agency
workforce. The performance measures were broad objectives, primarily to
provide training. Three performance measures on employee details
included quantities that we did not consider to be sufficiently precise
because the numbers were qualified by the words "up to." To be
sufficiently precise, performance measures must clearly specify the
training and the audience. For example, a performance measure to
"have all attorneys hired during the fiscal year attend an
Agency-sponsored introductory course" could be supported by
statistics on the number of hires and training records.
Consideration should be given as to
whether goal 3 with ten performance measures should be retained in its
present form. According to OMB guidance, agency-wide goals, such as
these on the workforce, can be included in the agency plan, but should
be few in number, key to program accomplishment, and where possible,
presented with the relevant program or activity. A key factor in
deciding to establish an agency-wide goal is a significant investment in
systems, equipment or facilities.
Significant revision of goal 3 would be
consistent with the OMB guidance. Employee training was included as a
strategy in goal 1. When a workforce issue with significant investment
is anticipated, a specific performance measure could be incorporated
into an annual performance plan with the related performance goal.
Further, the need to develop systems to collect and analyze the data
would be eliminated.
220.12 Verification and validation. The annual performance plan must include an
identification of the means the agency will use to verify and validate
the measured performance indicators. The means used should be
sufficiently credible and specific to support the general accuracy and
reliability of the performance information that is recorded, collected
and reported.
The FY 1999 Plan did not describe the
means to be used to verify and validate measured values, and the
description in the FY 2000 Plan was inadequate. The FY 2000 Plan
included two paragraphs on verification and validation of data that
discussed very generally the reconciliation of data input to the Case
Handling Information Processing System (CHIPS), and the new Case
Activity Tracking System (CATS). The description did not: state who was
responsible for the actual verification and validation of performance
measures, address all of the performance measures, or identify the
system that was actually used to prepare statistics.
Responsibility for measuring the goals
was not clearly designated. The Budget Branch Chief identified ten
officials as having responsibility for the performance measures. These
officials were requested to submit data for the performance report on
October 13, 1999. Several of the officials had not planned on providing
data and were not prepared to do so in a timely manner.
The means described for verification and
validation of data did not address at least 23 performance measures that
could not be measured by data in CHIPS and CATS. This includes
performance measures in goals 1 and 2 that were not quantifiable and all
of the performance measures for goals 3 and 4.
None of the performance measures were
actually supported by data in CATS or CHIPS. According to ITB, regional
offices entered duplicate information into a separate data-base system,
and ITB generated the reports used for the quantifiable performance
measures in goals 1 and 2 from this system. Officials gathered the data
for other performance measures, such as the installation of CATS in
regional offices, from office records. For some measures, particularly
those involving training, no plans were made on what data would be
collected and no systems existed to collect needed data. For example,
officials could identify relevant courses for a training goal, but not
data on how many employees were in the targeted universe or how many
employees actually received training.
The performance report was not compiled
in a timely manner. The initial drafts were distributed for review and
comment on November 4, 1999, with no data for eight performance measures
(two of which each had three subparts). Data was still not available as
of January 6, 2000, for one performance measure to reduce the number of
median days from issuance of complaint to close of hearing (2-5).
Officials could not effectively review draft documents missing
significant information, and the delay limited the usefulness of the
performance report in developing the FY 2001 Performance Plan.
220.13 Availability of detailed
performance information. For
many agencies, the annual plan will summarize performance information
prepared and used at different levels of the agency. In these instances,
agencies will have available the underlying detail.
We attempted to obtain supporting
documentation for data that, at a minimum, contained the same number(s)
provided in the draft performance report. Support was provided for most
of the results (25 of 32 quantifiable performance measures - see
Attachment 2).
We encountered several difficulties in
obtaining adequate documentation. Reports frequently needed to be
regenerated by program personnel or ITB. In theory, reports can be
regenerated and produce the same results. In practice, later reports
commonly did not have the same results due to changes in the data or the
way in which the request was phrased. Further, some of the reports had
to be analyzed to obtain a result, and the analysis had to be
replicated. The differences that resulted needed to be reconciled.
Some specific observations that we had
on documentation were:
An early draft Performance Report
showed 90 percent of elections were held within 56 days of filing
petition, which was questioned by the Budget Branch.
Operations-Management provided a new figure of 84.3 percent. We
obtained a report from ITB that showed 90.3 percent. The
difference was attributed to the inclusion of unblocked elections
in the lower figure. The higher number was retained (1-2).
The January draft Performance
Report stated 59 post-election reports were issued in more than
100 days, other than when the reasons were beyond control of the
regions. We expected the number of all reports issued in more than
100 days to be greater, or at least equal to the 59 reports. Using
a report generated by ITB and the stated criteria, we identified
52 reports in total and 39 when the blocked cases were eliminated
(1-8).
Unfair labor cases pending at the
Board for more than three years were reported as being reduced
from 81 to 13 cases. A list of the 81 cases was not available, and
support provided in February 2000 changed the number to 87 cases
(2-12).
Data was not available on all
elections held more than 85 days after filing (1-3). Similarly,
data was not available on all post-election reports issued more
than 120 days after the election (1-6).
The statistics on closing advice
cases and providing memoranda to the Board were calculated on
scratch paper that was discarded (2-8 and 2-9).
220.18 Revised final annual plan. Changes made to a final plan through a revised
final plan are limited to those resulting from Congressional action or
the occurrence of unanticipated exigencies. Revised plans should be
completed within 30 days of the start of the fiscal year. If
Congressional action is not completed, a revised plan should be based on
the agency's best judgment of the funding level. Prolonging completion
of a revised final plan until the FY is well underway limits the
usefulness as a management document.
An agency may choose to prepare a
revised final plan to reflect Congressional action on the budget
request. Only necessary changes should be made in the revised final
plan, and performance goals and indicators are the most likely element
to be altered. The revised final plan should clearly indicate the
changes in performance goals and indicators. The plan should not simply
substitute the modified values or descriptions, which would force
readers to search separate documents to understand the extent of the
changes.
The Agency revised the performance
measures in the FY 1999 Plan as allowed by OMB guidance, but did not do
so in a timely or clear manner. The Agency completed the FY 1999 Plan in
March 1998 based on a budget request of $194 million. In October 1998,
the Agency received an actual allocation of $184.5 million. The Board
did not issue a revised final FY 1999 Plan, choosing instead to include
the revised FY 1999 performance measures in the FY 2000 Plan issued
around March 1999.
The FY 2000 Plan did not inform the
reader in a narrative that the FY 1999 measures were revised, and did
not clearly identify the revised measures. The measures were reported in
a column titled "FY 1999 Estimated;" and some items appeared
to be reporting interim actual results, not performance measures. The
plan simply substituted the modified values or descriptions, and did not
indicate the changes made.
The extent of the changes is difficult
to clearly identify. The performance measures in the FY 1999 Plan were
not presented in the same format as in the FY 2000 Plan, which became
the basis for the draft performance report. Multiple new measures were
added in goals 1, 2 and 3, one measure in goal 1 was dropped, and the
wording for several measures was made less specific. Half of the
measures in goal 3 were changed to "No specific commitment."
Quantitative changes were made in multiple measures, some for rather
significant amounts.
232.1 &2 Elements of an annual
program performance report. An
annual report must compare actual performance with the projected levels
of performance set out in an annual performance plan. An agency may
selectively include comments on the quality of the actual performance
data included in the annual report, where such comments would help in
understanding the accuracy or validity of data.
Data on actual performance was not
provided in the draft performance report for two of the quantifiable
performance measures on reducing the median age of cases. Based on the
Strategic Plan, we calculated the FY 1999 goal for representation cases
as a 142-day median. Using the FY 2000 Plan, the revised goal was a
247-day median, actually an increase from baseline data (1-14). The
Strategic Plan did not identify the baseline data for unfair labor
cases, so we could not calculate the original goal. Using the FY 2000
Plan, the revised goal was a 204-day median (2-11). The actual number of
median days for FY 1999 was not provided for either performance measure,
effectively preventing any evaluation of the Agency's accomplishment of
these goals.
Several comments were needed in the
performance report to disclose data limitations. The performance data
was frequently calculated from an office rather than the Agency
perspective; accordingly, periods of time and some cases were excluded
from the measurements. We believe the performance measures should
reflect Agency performance, but if not, the results need to clearly
indicate what is being measured.
Dates. Most of the performance measures in goals 1 and
2 were time related. For time period calculations, we determined the
beginning date, ending date, and any periods suspended. Virtually all
calculations were done from an office viewpoint, allowing unproductive
times between offices to be unmeasured. See Attachment 3.
For most measures, the beginning dates
were when a case was logged into an office control system, not the
actual date of the action (i.e. filing or brief). These dates are
reportedly the same or the next day. But for measures counted in days,
this could make a difference, and allowed delays in logging an entry to
be excluded. If there was a choice of two dates, i.e. an objection or
challenge, the latter day was used.
One instance of using dates from an
office viewpoint concerned the preparation time for the Agency's annual
report. Upon first read, the measure implied that the Agency's annual
report would be issued within six months from fiscal year end. However,
the beginning date was not October 1, 1999, but the date ITB had
received all data, as determined by ITB, which was three weeks after the
fiscal year ended (4-5).
The ending dates were usually that of a
document issued. If there was a choice of two dates, i.e. the first or
last day of an election or hearing, the first day was used. Days for
mailing or publication were not included. For mail ballots, the date
mailed was used rather than the deadline for receiving ballots.
For some performance measures, time
periods were suspended between the beginning and ending dates when the
office requested additional information from another office. For
example, if a regional office requested advice and the headquarters
office needed more information, the clock was stopped while the case was
referred back to the originating office. The headquarters office
determined the dates to stop and start the clock, which did not concern
the regional office because referred cases were not included in their
statistics. One case was counted as 43 days until the appeal was
sustained; however, this did not include time "off-the-clock"
of 185 days.
Cases: Some of the performance measures excluded cases
from the universe. This was most noticeable in the performance measures
that included the words "except for reasons beyond control of
regions," but exclusions occurred for headquarter measures as well.
This included blocked cases or court cases, or anything considered out
of the office's control, so that a region would not count cases
related to a case pending a Board decision. See Attachment 4.
Calculations: The method used to calculate some results
indicated the figures were estimates rather than actual amounts.
Median, which is a commonly used Agency
measure, is the midpoint for all items in the universe. Two figures in
the performance plans were not actual amounts, but estimates based on
quarterly medians. The 21-day median for closing advice cases was
calculated as the midpoint of the monthly medians (2-7). The 62.5
percent of all elections held within 42 days was calculated from
quarterly medians (1-1).
Except for one performance measure,
whenever a calculation was made to count the number of days, the date of
receipt was not counted, and the final day was counted. One performance
measure counted both days (2-7). Responses made on the same day as
receipt were counted as zeroes in the calculations. All performance
measures do not have to be counted in the same manner, but a conscience
decision should be made as to why a method is being used.
Suggestions
The Budget Branch Chief initiated
several actions that were necessary. He scheduled training that resulted
in guidance to revise the strategic plan with fewer goals and
performance measures, and is developing linkage between the strategic
plan and the budget. Our suggestions relate to the verification and
validation aspect of the strategic plan. The description, in either the
strategic plan or a supporting document, should include the following
information for each performance measure:
--assign responsibility for
accumulating and reporting the data, which may be different than
who is responsible for the accomplishment;
--define clearly the factors used
in the measurement, particularly the beginning and ending dates
and any case universe;
--identify the systems that will be
used to gather the data and ways the data will be checked for
accuracy and completeness;
--establish what and where
supporting data will be maintained for annual performance reports,
and identify where underlying support is maintained.
We also suggest that the Agency adopt a
policy to prepare an interim performance report for internal purposes.
This report would alert the Agency at six months of any problems in
gathering data, and allow adjustments in work priorities if needed to
meet goals in the Strategic Plan.
Attachment
cc: The Board
General Counsel
Chief Administrative Law Judge
Executive Secretary
Director, Office of Representation Appeals
Associate General Counsel, Division of Advice
Associate General Counsel, Division of Operations-Management
Associate General Counsel, Division of Enforcement Litigation
Director, Division of Administration
QUANTIFIABLE MEASURES
Goal
Total
Finding
1
15
3
2
16
3
3
1
10
4
7
0
Total
48
16
GOAL 1: Resolve questions concerning
representation impartially, promptly, and conclusively.
Responsible
Official
Performance Measure
Comments
1-1.
AGC, Operations-Management
Hold at least 50% of all elections
within 42 days of filing petition.
1-2.
AGC, Operations-Management
Hold at least 87.5% of all
elections within 56 days of filing petition.
1-3.
AGC, Operations-Management
Hold no election more than 85 days
from filing petition, unless circumstances are beyond the regions
control.
1-4.
AGC, Operations-Management
Issue post-election reports within
a 35-day median from the filing of objections/ challenges if no
hearing is conducted.
1-5.
AGC, Operations-Management
Issue post-election reports within
a 95-day median from the filing of objections/ challenges if a
hearing is conducted.
1-6.
AGC, Operations-Management
Issue no post-election report more
than 120 days from the filing of objections/challenges except for
reasons beyond the control of regions.
1-7.
AGC, Operations-Management
Issue no post-election report more
than 50 days from the filing of objections/challenges, if no
hearing is conducted, except for reasons beyond control of
regions.
Attachment 1
Responsible
Official
Performance Measure
Comments
1-8.
AGC, Operations-Management
Issue no post-election report more
than 100 days from objections/challenges, if a hearing is
conducted, except for reasons beyond control of regions.
1-9.
AGC, Operations-Management
Achieve voluntary election
agreements at least 80% of the time.
1-10.
Director, Representation Appeals
Rule on Requests for Review of
Regional Decisions within a 21-day median from the receipt of the
request.
1-11.
AGC, Operations-Management
Establish/improve performance
goals and measures related to representation proceedings.
Not quantitative standard, value,
or rate.
1-12.
AGC, Operations-Management
Revise representation casehandling
manual and make it accessible to the public through several means,
including the Internet.
Not quantitative standard, value,
or rate.
1-13.
AGC, Operations-Management
Evaluate quality of representation
case work.
Not quantitative standard, value,
or rate.
1-14.
Executive Secretary
Reduce the median age of
representation cases pending before the Board, 158 days in FY
1997, by 5% annually.
1-15.
Executive Secretary
Issue all representation cases
pending at the Board more than two years.
Attachment 1
GOAL 2: Investigate, prosecute and
remedy unlawful acts, called unfair labor practices, by either employers
or unions or both.
Responsible Official
Performance Measure
Comments
2-1.
AGC, Operations-Management
Evaluate quality of ULP
casehandling.
Not quantitative standard, value,
or rate.
2-2.
AGC, Operations-Management
Chief, Procurement and Facilities
Branch
Evaluate management of Information
Officer Program. (yearly acceptance rate of 5 to 5.5% of inquiries
and a merit rate of at least 27% deleted).
Not quantitative standard, value,
or rate.
2-3.
AGC, Operations-Management
Reduce percentage of unexcused
overage cases in Category III (7 weeks) to 13%.
Reduce percentage of unexcused
overage cases in Category II (11weeks) to 20%.
Increase percentage of unexcused
overage cases in Category I (15 weeks) to 30%.
2-4.
AGC, Operations-Management
Settle 90 - 95% of ULP cases in
which further proceedings are deemed warranted prior to formal
litigation.
2-5.
AGC, Operations-Management
Chief ALJ
Reduce number of median days from
issuance of complaint to close of hearing.
2-6.
Director, Office of Appeals
Issue sustained appeals cases
within 120 days from receipt of the appeal in 60% of the closed
cases.
2-7.
AGC, Advice
Close advice cases not seeking
injunctions within a 25-day median of receipt from regional
offices.
Attachment 1
Responsible
Official
Performance
Measure
Comments
2-8.
AGC, Advice
Close advice cases seeking sec.
10(j) injunctions within a 25-day median of receipt from regional
offices.
2-9.
AGC, Advice
Provide memo to the Board in
advice cases seeking sec. 10(j) injunctions within 10 days of
receipt from regional offices.
2-10.
Chief ALJ
Issue ALJ decisions within a
90-day median of filing of briefs regardless of length of
transcript.
2-11.
Executive Secretary
Reduce the age of ULP cases
pending at the Board, currently 215 days, by 5% annually.
2-12.
Executive Secretary
Issue all ULP cases pending at the
Board for more than three years.
2-13.
AGC, Enforcement Litigation
File 83% of all priority
enforcement petitions within 100 days from referral.
2-14.
AGC, Enforcement Litigation
File 76% of all non-priority
enforcement petitions within 150 days from referral.
2-15.
AGC, Operations-Management
Reduce overage compliance cases in
Category III (13 weeks) to 10%.
Reduce overage compliance cases in
Category II (17 weeks) to 13%.
Reduce overage compliance cases in
Category I (21 weeks) to 15%.
2-16.
AGC, Operations-Management
Improve quality of ULP case
processing. Review, update and disseminate (including on Internet)
the ULP Practice Manual.
Not quantitative standard, value,
or rate.
Attachment 1
GOAL 3: Develop and maintain a well
trained, highly effective, productive, customer-service oriented
workforce.
Responsible Official
Performance Measure
Comments
3-1.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on specific Agency initiatives, such as representation
case processing. No specific commitment when revised.
Not quantitative standard, value,
or rate.
3-2.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on career development and continuing legal education.
Not quantitative standard, value,
or rate.
3-3.
AGC, Operations-Management
Provide up to 24 professional and
13 support field employees with voluntary details to headquarters
offices.
Not quantitative standard, value,
or rate.
3-4.
AGC, Operations-Management
Provide up to 17 headquarters
professional employees with details to field offices.
Not quantitative standard, value,
or rate.
3-5.
AGC, Operations-Management
Provide up to 11 details for
headquarters professional employees to other headquarters offices
.
Not quantitative standard, value,
or rate.
3-6.
AGC, Operations-Management
Hold training seminars (Strategic
Plan).
No specific commitment when
revised.
Not quantitative standard, value,
or rate.
3-7.
AGC, Operations-Management
Hold training seminars for trial
attorneys, field examiners and regional management. No specific
commitment when revised.
Not quantitative standard, value,
or rate.
3-8.
AGC, Operations-Management
Hold training seminars for new
employees, and on compliance and Freedom of Information Act. No
specific commitment when revised.
Not quantitative standard, value,
or rate.
3-9.
Chief ALJ
Provide training for ALJ. No
specific commitment when revised.
Not quantitative standard, value,
or rate.
3-10.
Executive Assistant to the
Chairman
Provide Board staff training for
supervisors. No specific commitment when revised.
Not quantitative standard, value,
or rate.
Attachment 1
GOAL 4: Fully integrate
information resource management into the working environment to increase
the Agencys ability to provide information to the public and to meet
Agency core mission functions and goals.
Responsible Official
Performance Measure
Comments
4-1.
Chief Information Officer
Establish information
infrastructure in 18 locations, for a total of 36.
4-2.
Chief Information Officer
Improve electronic access to legal
research materials. Provide every office access to the Internet.
4-3.
Chief Information Officer
Design and deploy
telecommunications architecture in 44 locations, for a total of
54.
4-4.
Chief Information Officer
Develop and deploy Case Activity
Tracking System in 26 locations, for a total of 28.
4-5.
Chief Information Officer
Maintain shorter preparation time
for Agencys Annual Report, 6 months for FY 1998 Report.
4-6.
Chief Information Officer
Improve agency and public access
to NLRB activities, decisions and documents through an Internet
web site.
4-7.
Chief Information Officer
Achieve Year 2000 compliance.
Attachment 1
SUPPORTING DOCUMENTATION
Goal
Total
Finding
1
12
9
2
13
9
3
0
0
4
7
7
Total
32
25
GOAL 1: Resolve questions concerning
representation impartially, promptly, and conclusively.
Responsible
Official
Performance Measure
Comments
1-1.
AGC, Operations-Management
Hold at least 50% of all elections
within 42 days of filing petition.
Operations-Management had report.
1-2.
AGC, Operations-Management
Hold at least 87.5% of all
elections within 56 days of filing petition.
ITB regenerated support, which
differed from revised figure provided by Operations-Management.
1-3.
AGC, Operations-Management
Hold no election more than 85 days
from filing petition, unless circumstances are beyond the regions
control.
Operations-Management provided
reports from 31 Regional Offices to support the unexcused
elections over 85 days. No supporting documentation was provided
for excused elections over 85 days.
1-4.
AGC, Operations-Management
Issue post-election reports within
a 35-day median from the filing of objections/ challenges if no
hearing is conducted.
Operations-Management had report.
1-5.
AGC, Operations-Management
Issue post-election reports within
a 95-day median from the filing of objections/ challenges if a
hearing is conducted.
Operations-Management had report.
1-6.
AGC, Operations-Management
Issue no post-election report more
than 120 days from the filing of objections/challenges except for
reasons beyond the control of regions.
Operations-Management provided
reports from 31 Regional Offices to support 3 unexcused reports
over 120 days. No supporting documentation was provided for
excused reports over 120 days.
1-7.
AGC, Operations-Management
Issue no post-election report more
than 50 days from the filing of objections/challenges, if no
hearing is conducted, except for reasons beyond control of
regions.
ITB regenerated report.
Attachment 2
Responsible
Official
Performance Measure
Comments
1-8.
AGC, Operations-Management
Issue no post-election report more
than 100 days from objections/challenges, if a hearing is
conducted, except for reasons beyond control of regions.
Operations-Management provided
report that was not annotated; does not match 59 reports.
1-9.
AGC, Operations-Management
Achieve voluntary election
agreements at least 80% of the time.
Operations-Management had report.
1-10.
Director, Representation Appeals
Rule on Requests for Review of
Regional Decisions within a 21-day median from the receipt of the
request.
ITB regenerated report.
1-11.
AGC, Operations-Management
Establish/improve performance
goals and measures related to representation proceedings.
Not applicable.
1-12.
AGC, Operations-Management
Revise representation casehandling
manual and make it accessible to the public through several means,
including the Internet.
Not applicable.
1-13.
AGC, Operations-Management
Evaluate quality of representation
case work.
Not applicable.
1-14.
Executive Secretary
Reduce the median age of
representation cases pending before the Board, 158 days in FY
1997, by 5% annually.
OES regenerated and annotated
report.
1-15.
Executive Secretary
Issue all representation cases
pending at the Board more than two years.
OES generated statistics from
office records. New report generated had different numbers.
Attachment 2
GOAL 2: Investigate, prosecute and
remedy unlawful acts, called unfair labor practices, by either employers
or unions or both.
Responsible Official
Performance Measure
Comments
2-1.
AGC, Operations-Management
Evaluate quality of ULP
casehandling.
Not applicable.
2-2.
AGC, Operations-Management
Chief, Procurement and Facilities
Branch
Evaluate management of Information
Officer Program. (yearly acceptance rate of 5 to 5.5% of inquiries
and a merit rate of at least 27% deleted).
Not applicable.
2-3.
AGC, Operations-Management
Reduce percentage of unexcused
overage cases in Category III (7 weeks) to 13%.
Operations-Management had report.
Reduce percentage of unexcused
overage cases in Category II (11weeks) to 20%.
Increase percentage of unexcused
overage cases in Category I (15 weeks) to 30%.
2-4.
AGC, Operations-Management
Settle 90 - 95% of ULP cases in
which further proceedings are deemed warranted prior to formal
litigation.
Operations-Management had report.
2-5.
AGC, Operations-Management
Chief ALJ
Reduce number of median days from
issuance of complaint to close of hearing.
Data on results not available.
2-6.
Director, Office of Appeals
Issue sustained appeals cases
within 120 days from receipt of the appeal in 60% of the closed
cases.
Appeals regenerated report, not
annotated.
2-7.
AGC, Advice
Close advice cases not seeking
injunctions within a 25-day median of receipt from regional
offices.
Advice had report, not annotated.
Attachment 2
Responsible
Official
Performance
Measure
Comments
2-8.
AGC, Advice
Close advice cases seeking sec.
10(j) injunctions within a 25-day median of receipt from regional
offices.
Program office calculations on
scratch paper were discarded.
2-9.
AGC, Advice
Provide memo to the Board in
advice cases seeking sec. 10(j) injunctions within 10 days of
receipt from regional offices.
Program office calculations on
scratch paper were discarded.
2-10.
Chief ALJ
Issue ALJ decisions within a
90-day median of filing of briefs regardless of length of
transcript.
ITB regenerated report.
2-11.
Executive Secretary
Reduce the age of ULP cases
pending at the Board, currently 215 days, by 5% annually.
OES generated report.
2-12.
Executive Secretary
Issue all ULP cases pending at the
Board for more than three years.
OES generated statistics from
office records. Support generated in February 2000 changed numbers
from 81 to 87 cases.
2-13.
AGC, Enforcement Litigation
File 83% of all priority
enforcement petitions within 100 days from referral.
Enforcement had annotated report.
2-14.
AGC, Enforcement Litigation
File 76% of all non-priority
enforcement petitions within 150 days from referral.
Enforcement had annotated report.
2-15.
AGC, Operations-Management
Reduce overage compliance cases in
Category III (13 weeks) to 10%.
Operations-Management had report.
Reduce overage compliance cases in
Category II (17 weeks) to 13%.
Reduce overage compliance cases in
Category I (21 weeks) to 15%.
2-16.
AGC, Operations-Management
Improve quality of ULP case
processing. Review, update and disseminate (including on Internet)
the ULP Practice Manual.
Not applicable.
Attachment 2
GOAL 3: Develop and maintain a well
trained, highly effective, productive, customer-service oriented
workforce.
Responsible Official
Performance Measure
Comments
3-1.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on specific Agency initiatives, such as representation
case processing. No specific commitment when revised.
Not applicable.
3-2.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on career development and continuing legal education.
Not applicable.
3-3.
AGC, Operations-Management
Provide up to 24 professional and
13 support field employees with voluntary details to headquarters
offices.
Not applicable.
3-4.
AGC, Operations-Management
Provide up to 17 headquarters
professional employees with details to field offices.
Not applicable.
3-5.
AGC, Operations-Management
Provide up to 11 details for
headquarters professional employees to other headquarters offices
.
Not applicable.
3-6.
AGC, Operations-Management
Hold training seminars (Strategic
Plan).
No specific commitment when
revised.
Not applicable.
3-7.
AGC, Operations-Management
Hold training seminars for trial
attorneys, field examiners and regional management. No specific
commitment when revised.
Not applicable.
3-8.
AGC, Operations-Management
Hold training seminars for new
employees, and on compliance and Freedom of Information Act. No
specific commitment when revised.
Not applicable.
3-9.
Chief ALJ
Provide training for ALJ. No
specific commitment when revised.
Not applicable.
3-10.
Executive Assistant to the
Chairman
Provide Board staff training for
supervisors. No specific commitment when revised.
Not applicable.
Attachment 2
GOAL 4: Fully integrate
information resource management into the working environment to
increase the Agencys ability to provide information to the
public and to meet Agency core mission functions and goals.
Responsible Official
Performance Measure
Comments
4-1.
Chief Information Officer
Establish information
infrastructure in 18 locations, for a total of 36.
ITB provided from office files.
4-2.
Chief Information Officer
Improve electronic access to legal
research materials. Provide every office access to the Internet.
ITB provided from office files.
4-3.
Chief Information Officer
Design and deploy
telecommunications architecture in 44 locations, for a total of
54.
ITB provided from office files.
4-4.
Chief Information Officer
Develop and deploy Case Activity
Tracking System in 26 locations, for a total of 28.
ITB provided from office files.
4-5.
Chief Information Officer
Maintain shorter preparation time
for Agencys Annual Report, 6 months for FY 1998 Report.
ITB provided from office files.
4-6.
Chief Information Officer
Improve agency and public access
to NLRB activities, decisions and documents through an Internet
web site.
ITB provided from office files.
4-7.
Chief Information Officer
Achieve Year 2000 compliance.
ITB provided from office files.
Attachment 2
TIME
CALCULATIONS
Goal
Total
Finding
1
12
8
2
13
9
3
0
0
4
7
1
Total
32
18
GOAL 1: Resolve questions concerning
representation impartially, promptly, and conclusively.
Responsible
Official
Performance Measure
Comments
1-1.
AGC, Operations-Management
Hold at least 50% of all elections
within 42 days of filing petition.
Ending date is beginning of
election, even when several days are needed on site or several
weeks for mail-in ballots.
1-2.
AGC, Operations-Management
Hold at least 87.5% of all
elections within 56 days of filing petition.
Ending date is beginning of
election, even when several days are needed on site or several
weeks for mail-in ballots.
1-3.
AGC, Operations-Management
Hold no election more than 85 days
from filing petition, unless circumstances are beyond the regions
control.
1-4.
AGC, Operations-Management
Issue post-election reports within
a 35-day median from the filing of objections/ challenges if no
hearing is conducted.
Beginning date is from latest of
objection or challenge, which can be up to 7 days after date
election over.
1-5.
AGC, Operations-Management
Issue post-election reports within
a 95-day median from the filing of objections/ challenges if a
hearing is conducted.
Beginning date is from latest of
objection or challenge, which can be up to 7 days after date
election over.
1-6.
AGC, Operations-Management
Issue no post-election report more
than 120 days from the filing of objections/challenges except for
reasons beyond the control of regions.
Beginning date is from latest of
objection or challenge, which can be up to 7 days after date
election over.
1-7.
AGC, Operations-Management
Issue no post-election report more
than 50 days from the filing of objections/challenges, if no
hearing is conducted, except for reasons beyond control of
regions.
Beginning date is from latest of
objection or challenge, which can be up to 7 days after date
election over.
Attachment 3
Responsible
Official
Performance Measure
Comments
1-8.
AGC, Operations-Management
Issue no post-election report more
than 100 days from objections/challenges, if a hearing is
conducted, except for reasons beyond control of regions.
Beginning date is from latest of
objection or challenge, which can be up to 7 days after date
election over.
1-9.
AGC, Operations-Management
Achieve voluntary election
agreements at least 80% of the time.
1-10.
Director, Representation Appeals
Rule on Requests for Review of
Regional Decisions within a 21-day median from the receipt of the
request.
Beginning date is day received in
office, rather than date of request or receipt in OES.
1-11.
AGC, Operations-Management
Establish/improve performance
goals and measures related to representation proceedings.
1-12.
AGC, Operations-Management
Revise representation casehandling
manual and make it accessible to the public through several means,
including the Internet.
1-13.
AGC, Operations-Management
Evaluate quality of representation
case work.
1-14.
Executive Secretary
Reduce the median age of
representation cases pending before the Board, 158 days in FY
1997, by 5% annually.
1-15.
Executive Secretary
Issue all representation cases
pending at the Board more than two years.
Attachment 3
GOAL 2: Investigate, prosecute and
remedy unlawful acts, called unfair labor practices, by either employers
or unions or both.
Responsible Official
Performance Measure
Comments
2-1.
AGC, Operations-Management
Evaluate quality of ULP
casehandling.
2-2.
AGC, Operations-Management
Chief, Procurement and Facilities
Branch
Evaluate management of Information
Officer Program. (yearly acceptance rate of 5 to 5.5% of inquiries
and a merit rate of at least 27% deleted).
2-3.
AGC, Operations-Management
Reduce percentage of unexcused
overage cases in Category III (7 weeks) to 13%.
Beginning date when docketed, not
when filed, which is usually the same or next day.
Reduce percentage of unexcused
overage cases in Category II (11weeks) to 20%.
Increase percentage of unexcused
overage cases in Category I (15 weeks) to 30%.
2-4.
AGC, Operations-Management
Settle 90 - 95% of ULP cases in
which further proceedings are deemed warranted prior to formal
litigation.
2-5.
AGC, Operations-Management
Chief ALJ
Reduce number of median days from
issuance of complaint to close of hearing.
2-6.
Director, Office of Appeals
Issue sustained appeals cases
within 120 days from receipt of the appeal in 60% of the closed
cases.
Beginning date when received in
office, not when filed by individuals. Time suspended when request
made to another office for information.
2-7.
AGC, Advice
Close advice cases not seeking
injunctions within a 25-day median of receipt from regional
offices.
Beginning date when received in
office, not when filed by individuals. Time suspended when request
made to another office for information.
Attachment 3
Responsible
Official
Performance
Measure
Comments
2-8.
AGC, Advice
Close advice cases seeking sec.
10(j) injunctions within a 25-day median of receipt from regional
offices.
Beginning date when received in
office, not when filed by individuals. Time suspended when request
made to another office for information.
2-9.
AGC, Advice
Provide memo to the Board in
advice cases seeking sec. 10(j) injunctions within 10 days of
receipt from regional offices.
Beginning date when received in
office, not when filed by individuals. Time suspended when request
made to another office for information.
2-10.
Chief ALJ
Issue ALJ decisions within a
90-day median of filing of briefs regardless of length of
transcript.
Beginning date when received by
ALJ, not when filed. Ending date when signed by ALJ, not when
issued by OES.
2-11.
Executive Secretary
Reduce the age of ULP cases
pending at the Board, currently 215 days, by 5% annually.
2-12.
Executive Secretary
Issue all ULP cases pending at the
Board for more than three years.
2-13.
AGC, Enforcement Litigation
File 83% of all priority
enforcement petitions within 100 days from referral.
Ending date when mailed to court,
not received there. Time suspended when request made to another
office for information.
2-14.
AGC, Enforcement Litigation
File 76% of all non-priority
enforcement petitions within 150 days from referral.
Ending date when mailed to court,
not received there. Time suspended when request made to another
office for information.
2-15.
AGC, Operations-Management
Reduce overage compliance cases in
Category III (13 weeks) to 10%.
Beginning date when received in
office, not date of court order or decree.
Reduce overage compliance cases in
Category II (17 weeks) to 13%.
Reduce overage compliance cases in
Category I (21 weeks) to 15%.
2-16.
AGC, Operations-Management
Improve quality of ULP case
processing. Review, update and disseminate (including on Internet)
the ULP Practice Manual.
Attachment 3
GOAL 3: Develop and maintain a well
trained, highly effective, productive, customer-service oriented
workforce.
Responsible Official
Performance Measure
Comments
3-1.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on specific Agency initiatives, such as representation
case processing. No specific commitment when revised.
3-2.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on career development and continuing legal education.
3-3.
AGC, Operations-Management
Provide up to 24 professional and
13 support field employees with voluntary details to headquarters
offices.
3-4.
AGC, Operations-Management
Provide up to 17 headquarters
professional employees with details to field offices.
3-5.
AGC, Operations-Management
Provide up to 11 details for
headquarters professional employees to other headquarters offices
.
3-6.
AGC, Operations-Management
Hold training seminars (Strategic
Plan).
No specific commitment when
revised.
3-7.
AGC, Operations-Management
Hold training seminars for trial
attorneys, field examiners and regional management. No specific
commitment when revised.
3-8.
AGC, Operations-Management
Hold training seminars for new
employees, and on compliance and Freedom of Information Act. No
specific commitment when revised.
3-9.
Chief ALJ
Provide training for ALJ. No
specific commitment when revised.
3-10.
Executive Assistant to the
Chairman
Provide Board staff training for
supervisors. No specific commitment when revised.
Attachment 3
GOAL 4: Fully integrate
information resource management into the working environment to
increase the Agencys ability to provide information to the
public and to meet Agency core mission functions and goals.
Responsible Official
Performance Measure
Comments
4-1.
Chief Information Officer
Establish information
infrastructure in 18 locations, for a total of 36.
4-2.
Chief Information Officer
Improve electronic access to legal
research materials. Provide every office access to the Internet.
4-3.
Chief Information Officer
Design and deploy
telecommunications architecture in 44 locations, for a total of
54.
4-4.
Chief Information Officer
Develop and deploy Case Activity
Tracking System in 26 locations, for a total of 28.
4-5.
Chief Information Officer
Maintain shorter preparation time
for Agencys Annual Report, 6 months for FY 1998 Report.
Date all information is received
by ITB, not end of fiscal year.
4-6.
Chief Information Officer
Improve agency and public access
to NLRB activities, decisions and documents through an Internet
web site.
4-7.
Chief Information Officer
Achieve Year 2000 compliance.
Attachment 3
EXCLUDED
CASES
Goal
Total
Finding
1
15
3
2
16
3
3
10
10
4
7
0
Total
48
16
GOAL 1: Resolve questions concerning
representation impartially, promptly, and conclusively.
Responsible
Official
Performance Measure
Comments
1-1.
AGC, Operations-Management
Hold at least 50% of all elections
within 42 days of filing petition.
1-2.
AGC, Operations-Management
Hold at least 87.5% of all
elections within 56 days of filing petition.
1-3.
AGC, Operations-Management
Hold no election more than 85 days
from filing petition, unless circumstances are beyond the regions
control.
Blocked and excused cases
excluded.
1-4.
AGC, Operations-Management
Issue post-election reports within
a 35-day median from the filing of objections/ challenges if no
hearing is conducted.
1-5.
AGC, Operations-Management
Issue post-election reports within
a 95-day median from the filing of objections/ challenges if a
hearing is conducted.
1-6.
AGC, Operations-Management
Issue no post-election report more
than 120 days from the filing of objections/challenges except for
reasons beyond the control of regions.
Blocked and excused cases
excluded.
1-7.
AGC, Operations-Management
Issue no post-election report more
than 50 days from the filing of objections/challenges, if no
hearing is conducted, except for reasons beyond control of
regions.
Blocked and excused cases
excluded.
Attachment 4
Responsible
Official
Performance Measure
Comments
1-8.
AGC, Operations-Management
Issue no post-election report more
than 100 days from objections/challenges, if a hearing is
conducted, except for reasons beyond control of regions.
Blocked and excused cases
excluded.
1-9.
AGC, Operations-Management
Achieve voluntary election
agreements at least 80% of the time.
1-10.
Director, Representation Appeals
Rule on Requests for Review of
Regional Decisions within a 21-day median from the receipt of the
request.
Cases not circulated, assigned, or
iced are excluded.
1-11.
AGC, Operations-Management
Establish/improve performance
goals and measures related to representation proceedings.
1-12.
AGC, Operations-Management
Revise representation casehandling
manual and make it accessible to the public through several means,
including the Internet.
1-13.
AGC, Operations-Management
Evaluate quality of representation
case work.
1-14.
Executive Secretary
Reduce the median age of
representation cases pending before the Board, 158 days in FY
1997, by 5% annually.
1-15.
Executive Secretary
Issue all representation cases
pending at the Board more than two years.
Attachment 4
GOAL 2: Investigate, prosecute and
remedy unlawful acts, called unfair labor practices, by either employers
or unions or both.
Responsible Official
Performance Measure
Comments
2-1.
AGC, Operations-Management
Evaluate quality of ULP
casehandling.
2-2.
AGC, Operations-Management
Chief, Procurement and Facilities
Branch
Evaluate management of Information
Officer Program. (yearly acceptance rate of 5 to 5.5% of inquiries
and a merit rate of at least 27% deleted).
2-3.
AGC, Operations-Management
Reduce percentage of unexcused
overage cases in Category III (7 weeks) to 13%.
Excused cases are excluded.
Reduce percentage of unexcused
overage cases in Category II (11weeks) to 20%.
Increase percentage of unexcused
overage cases in Category I (15 weeks) to 30%.
2-4.
AGC, Operations-Management
Settle 90 - 95% of ULP cases in
which further proceedings are deemed warranted prior to formal
litigation.
2-5.
AGC, Operations-Management
Chief ALJ
Reduce number of median days from
issuance of complaint to close of hearing.
2-6.
Director, Office of Appeals
Issue sustained appeals cases
within 120 days from receipt of the appeal in 60% of the closed
cases.
Remanded cases to Regional
Offices.
2-7.
AGC, Advice
Close advice cases not seeking
injunctions within a 25-day median of receipt from regional
offices.
Attachment 4
Responsible
Official
Performance
Measure
Comments
2-8.
AGC, Advice
Close advice cases seeking sec.
10(j) injunctions within a 25-day median of receipt from regional
offices.
2-9.
AGC, Advice
Provide memo to the Board in
advice cases seeking sec. 10(j) injunctions within 10 days of
receipt from regional offices.
2-10.
Chief ALJ
Issue ALJ decisions within a
90-day median of filing of briefs regardless of length of
transcript.
2-11.
Executive Secretary
Reduce the age of ULP cases
pending at the Board, currently 215 days, by 5% annually.
2-12.
Executive Secretary
Issue all ULP cases pending at the
Board for more than three years.
2-13.
AGC, Enforcement Litigation
File 83% of all priority
enforcement petitions within 100 days from referral.
2-14.
AGC, Enforcement Litigation
File 76% of all non-priority
enforcement petitions within 150 days from referral.
2-15.
AGC, Operations-Management
Reduce overage compliance cases in
Category III (13 weeks) to 10%.
Reduce overage compliance cases in
Category II (17 weeks) to 13%.
Reduce overage compliance cases in
Category I (21 weeks) to 15%.
2-16.
AGC, Operations-Management
Improve quality of ULP case
processing. Review, update and disseminate (including on Internet)
the ULP Practice Manual.
Attachment 4
GOAL 3: Develop and maintain a well
trained, highly effective, productive, customer-service oriented
workforce.
Responsible Official
Performance Measure
Comments
3-1.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on specific Agency initiatives, such as representation
case processing. No specific commitment when revised.
3-2.
Assistant Branch Chief, Employee
Development Section
Provide General Counsel staff
training on career development and continuing legal education.
3-3.
AGC, Operations-Management
Provide up to 24 professional and
13 support field employees with voluntary details to headquarters
offices.
3-4.
AGC, Operations-Management
Provide up to 17 headquarters
professional employees with details to field offices.
3-5.
AGC, Operations-Management
Provide up to 11 details for
headquarters professional employees to other headquarters offices
.
3-6.
AGC, Operations-Management
Hold training seminars (Strategic
Plan).
No specific commitment when
revised.
3-7.
AGC, Operations-Management
Hold training seminars for trial
attorneys, field examiners and regional management. No specific
commitment when revised.
3-8.
AGC, Operations-Management
Hold training seminars for new
employees, and on compliance and Freedom of Information Act. No
specific commitment when revised.
3-9.
Chief ALJ
Provide training for ALJ. No
specific commitment when revised.
3-10.
Executive Assistant to the
Chairman
Provide Board staff training for
supervisors. No specific commitment when revised.
Attachment 4
GOAL 4: Fully integrate
information resource management into the working environment to
increase the Agencys ability to provide information to the
public and to meet Agency core mission functions and goals.
Responsible Official
Performance Measure
Comments
4-1.
Chief Information Officer
Establish information
infrastructure in 18 locations, for a total of 36.
4-2.
Chief Information Officer
Improve electronic access to legal
research materials. Provide every office access to the Internet.
4-3.
Chief Information Officer
Design and deploy
telecommunications architecture in 44 locations, for a total of
54.
4-4.
Chief Information Officer
Develop and deploy Case Activity
Tracking System in 26 locations, for a total of 28.
4-5.
Chief Information Officer
Maintain shorter preparation time
for Agencys Annual Report, 6 months for FY 1998 Report.
4-6.
Chief Information Officer
Improve agency and public access
to NLRB activities, decisions and documents through an Internet
web site.
4-7.
Chief Information Officer
Achieve Year 2000 compliance.